No. 20-1113
IN THE SUPREME COURT OF THE UNITED STATES
_________________
AMERICAN HOSPITAL ASSOCIATION, ET AL.,
PETITIONERS
v.
XAVIER BECERRA,
SECRETARY OF HEALTH AND HUMAN SERVICES, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 13th day of May 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 7,336 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
May 13, 2021

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
May 13, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-1113
AMERICAN HOSPITAL ASSOCIATION, ET AL.
XAVIER BECERRA, SECRETARY OF HEALTH AND
HUMAN SERVICES, ET AL.

CHAD GOLDER
514 6TH STREET, NE
WASHINGTON, DC 20002
CHADGOLDER@GMAIL.COM
MARK D. POLSTON
KING & SPALDING LLP
1700 PENNSYLVANIA AVE., N.W.
SUITE 200
WASHINGTON, DC 20006
202-626-5540
MPOLSTON@KSLAW.COM
HOWARD R. RUBIN
KATTEN MUCHIN ROSEMAN LLP
2900 K STREET, N.W.
WASHINGTON, DC 20007
202-625-3500
HOWARD.RUBIN@KATTENLAW.COM
CATHERINE EMILY STETSON
HOGAN LOVELLS US LLP
555 13TH STREET, N.W.
WASHINGTON, DC 20004-1109
202-637-5491

